<html>
<title> - [H.A.S.C. No. 114-53] PUBLIC SHIPYARDS' ROLE IN MEETING OPERATIONAL REQUIREMENTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 
                           [H.A.S.C. No. 114-53]

       PUBLIC SHIPYARDS' ROLE IN MEETING OPERATIONAL REQUIREMENTS

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 1, 2015

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     


                                     
  


                       SUBCOMMITTEE ON READINESS

                 ROBERT J. WITTMAN, Virginia, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
ELISE M. STEFANIK, New York          JOAQUIN CASTRO, Texas
FRANK A. LoBIONDO, New Jersey        TAMMY DUCKWORTH, Illinois
MIKE ROGERS, Alabama                 SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      TULSI GABBARD, Hawaii
STEVEN M. PALAZZO, Mississippi       BETO O'ROURKE, Texas
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
BRAD R. WENSTRUP, Ohio
SAM GRAVES, Missouri
                Craig Collier, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
                        Katherine Rember, Clerk
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Readiness............................     1

                               WITNESSES

Whitney, RADM Mark R., USN, Deputy Commander, Logistics, 
  Maintenance and Industrial Operations, Naval Sea Systems 
  Command (NAVSEA 04)............................................     2

                                APPENDIX

Prepared Statements:

    Whitney, RADM Mark R.........................................    20
    Wittman, Hon. Robert J.......................................    19

Documents Submitted for the Record:

    NAVSEA Brief on Hampton Roads Shipbuilding and Ship Repair 
      Industrial Base............................................    31

Witness Responses to Questions Asked During the Hearing:

    Ms. Bordallo.................................................    45
    Mr. Courtney.................................................    45
    Mr. Wittman..................................................    45

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................    49
    
  
       PUBLIC SHIPYARDS' ROLE IN MEETING OPERATIONAL REQUIREMENTS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                         Washington, DC, Thursday, October 1, 2015.
    The subcommittee met, pursuant to call, at 8:00 a.m., in 
room 2118, Rayburn House Office Building, Hon. Robert J. 
Wittman (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wittman. I call to order the Subcommittee on Readiness. 
I want to welcome everyone this morning, but first I want to 
thank Rear Admiral Mark R. Whitney, Deputy Commander, 
Logistics, Maintenance and Industrial Operations, Naval Sea 
Systems Command [NAVSEA]. Thank you for being with us today.
    The Navy's four public shipyards, Norfolk Naval Shipyard in 
Virginia, Pearl Harbor Naval Shipyard in Hawaii, Portsmouth 
Naval Shipyard in Maine, and Puget Sound Naval Shipyard in 
Washington, face a number of challenges in completing ship 
maintenance on time and within budget.
    Wartime requirements, as we know, over the past decade have 
worsened the condition of our fleet, causing ships to require 
more maintenance than expected upon arrival at the shipyard.
    A few weeks ago, we received testimony about the Navy's 
Optimized Fleet Response Plan [O-FRP], which, among other 
things, seeks to provide a more sustainable force generation 
model and more predictability for ship maintenance.
    Today I look forward to hearing about the shipyards' role 
in meeting the Navy's operational requirements and how they are 
responding to the maintenance and repair challenges that recent 
operations have put upon the fleet.
    Now I turn to the ranking member, Ms. Bordallo, for any 
opening remarks she may have. And again, we thank her for her 
leadership in HASC [House Armed Services Committee] and here in 
the subcommittee.
    Madeleine.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 19.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you. Thank you very much, Mr. Chairman.
    And thank you for arranging this hearing on our public 
shipyards.
    Admiral Whitney, thank you for being here today so early.
    I very much appreciate what you are doing to try to 
maintain and enhance the readiness of our fleet. I am hopeful 
that the O-FRP and your plans with the shipyards can be 
implemented in a timely manner and will not suffer under a 
continuing resolution [CR] government shutdown, or 
sequestration-level budgets.
    I am particularly interested in hearing what steps the Navy 
is taking to bring shipyard staffing up to the levels needed to 
increase productivity. How are you getting 4,500 new employees 
up to speed in critical technical areas?
    And I also would like to hear specifics regarding 
infrastructure improvements for the public shipyards, including 
where the challenges lie, what is being done to meet those 
challenges, and how well funded the Navy's recapitalization 
plan is.
    We must reset our readiness that has been degraded by years 
of constant engagement and high operational tempo, and ensure a 
stable and a predictable funding stream is available for these 
programs.
    And I know the chairman and my colleagues on this 
subcommittee share that goal. And we look forward to hearing 
how you plan to ensure our readiness goals are met through 
engaging our public and private shipyards, and intermediate 
maintenance repair facilities.
    And I yield back, and thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Ms. Bordallo.
    Admiral Whitney, we now go to you for an opening statement.

   STATEMENT OF RADM MARK R. WHITNEY, USN, DEPUTY COMMANDER, 
  LOGISTICS, MAINTENANCE AND INDUSTRIAL OPERATIONS, NAVAL SEA 
                  SYSTEMS COMMAND (NAVSEA 04)

    Admiral Whitney. Good morning. Chairman Wittman, Ranking 
Member Bordallo, and distinguished members of the House Armed 
Services Readiness Subcommittee, I appreciate the opportunity 
to testify about the naval shipyards' critical role in meeting 
the Navy's operational requirements.
    I am privileged to have worked in and around the naval 
shipyards for over 20 years. This includes the honor of having 
been the commander of a naval shipyard.
    Today I am before you representing the more than 33,000 
civilian and military dedicated and patriotic professionals who 
give their life every day to serve our country and fix our 
ships.
    These heroes come to work, put on a hard hat and safety 
shoes, and stand ready to service our great Navy, any time, any 
place, to ensure our sailors are always ready to stand the 
watch.
    Today I am prepared to discuss the challenges that this 
workforce faces to improve performance and reduce the 
maintenance backlogs at the naval shipyards that have prevented 
us from getting back to the fleet the ships that they urgently 
need, as well as discuss the initiatives that we are taking to 
address those challenges.
    The workforce at the naval shipyard is engaged. They are 
tackling the challenges and embracing the improvement 
initiatives every single day, and they work towards one goal--
the successful delivery of ships back to the fleet.
    The four public shipyards--Portsmouth, Norfolk, Puget 
Sound, and Pearl Harbor--are owned and funded by the fleets and 
operated by the Naval Sea Systems Command.
    The naval shipyards ensure that the Navy has the essential 
and organic capability to perform cradle-to-grave service for 
our nuclear-powered aircraft carrier and submarines. The 
workforce provides the services that are vital to sustain the 
fleet's operational availability and ensure mission success.
    The naval shipyards' performance has been challenged in the 
past 3 years due to increased workload that is coupled by an 
increased number of new and less experienced workers.
    In fiscal year 2014, the naval shipyards executed 4.7 
million man-days of workload. This workload has continued to 
increase through fiscal year 2015 and will increase through 
fiscal year 2017, likely peaking in fiscal year 2018. This 
increase has been caused, in part, by the high operational 
tempo of the fleet and extended deployments that has been 
described in previous testimony.
    The primary solution is to resolve the workload-to-
workforce imbalance by increasing the workforce to the right 
level so that we can have a fighting chance to get the required 
maintenance completed on time and on budget.
    The solution set also includes training and developing the 
new workforce and its management team, as well as diligently 
working on process improvement. We will achieve success by 
utilizing our apprentice programs and other workforce 
development efforts in conjunction with productivity 
improvement initiatives.
    The challenge of the last 2 years has been hiring to an 
appropriate level across the naval shipyards. In fiscal year 
2013, the naval shipyards had about 29,000 full-time 
equivalents. With the impact of sequestration, a hiring freeze, 
and increased workload, accelerated hiring has been necessary.
    The fiscal year 2016 budget supports an increase in the 
shipyard workforce to achieve 33,500 direct and indirect full-
time equivalents. In 2014, this number, including private 
sector partner assistants, was determined to be the appropriate 
size workforce needed to execute the increasing workload and 
reset the workload-to-workforce imbalance.
    Shipyard availability performance, warfighter readiness, 
and fleet forward-deployed presence are directly linked to the 
capabilities provided by the efficient operation of the naval 
shipyard facilities.
    Naval Sea Systems Command continues to prioritize the 
sustainment and recapitalization of the naval shipyards' 
infrastructure.
    Investments continue to focus on mission-critical 
facilities inside the controlled industrial area, which 
primarily include production shops, piers, wharfs, dry docks, 
and supporting utility systems.
    Naval Sea Systems Command is focused on the naval 
shipyards' information technology systems, as well. These 
systems are outdated and a challenge to support as we push to 
new cybersecurity standards.
    Naval Sea Systems Command is implementing solutions to the 
maintenance information systems to address critical 
cybersecurity vulnerabilities and increase workforce 
productivity.
    Overall, facility investments are prioritized to address 
the most critical capability, safety, productivity deficiencies 
associated with these mission-critical facilities.
    The hardworking, dedicated professionals across the naval 
shipyards stand with me to tackle these challenges face-on. Our 
focus each and every day is to get our Navy ships back to sea 
when the fleet needs them in support of O-FRP.
    Again, thank you for inviting me here today before this 
committee, and I thank you for your continued and crucial 
support of the naval shipyards. I will be glad to take any 
questions that you have.
    [The prepared statement of Admiral Whitney can be found in 
the Appendix on page 20.]
    Mr. Wittman. Admiral Whitney, thank you. I am going to come 
to my questions as other members have had their chances. We 
have a few members that have to leave a little bit earlier, so 
I will go now to Ms. Bordallo.
    Ms. Bordallo. Thank you. Thank you very much, Mr. Chairman.
    Admiral Whitney, how do you envision the role of shipyards 
like the one on Guam, which is more of a hybrid between a 
public and private yard? We essentially have established a 
government-owned contractor-operated construct. So how does 
this contribute to supporting the O-FRP and the backlog in ship 
maintenance?
    Admiral Whitney. The role of the naval shipyards' 
engagement with private sector partners is critical to the 
success of the shipyards--naval shipyards being able to execute 
their workload.
    Pearl Harbor Naval Shipyard and Puget Sound Naval Shipyard 
both do maintenance on the island of Guam in support of the 
homeported 688 submarines as well as the SSGNs [guided-missile 
nuclear submarines] that come in for voyage repair periods.
    So the partnership is critical. And so we need to ensure 
that when, as we will likely discuss later, the role and the 
visibility of the total workload, we just need to make sure 
that that partnership is strong.
    Ms. Bordallo. So you don't think that it will add to the 
backlog, that it would----
    Admiral Whitney. No, ma'am.
    Ms. Bordallo. All right.
    Admiral Whitney, how do maintenance schedules for ships 
that support the carrier and expeditionary strike groups fit 
into the O-FRP concept? And isn't it just as important that the 
maintenance for those ships is done in a timely and cost-
efficient manner to ensure the readiness of the strike groups?
    Admiral Whitney. Yes, ma'am. So the focus of O-FRP is that 
carrier strike group [CSG]. And the naval shipyard piece of 
that equation is to ensure that the aircraft carriers are 
delivered on time.
    The coordination, then, therefore, is to make sure, within 
the port that we have visibility of the workload and we are 
partnering in making sure that we are doing this in an aligned 
manner.
    So in order for the total strike group to be successful, we 
all need to be sharing and aligned in what that workload is and 
how it is going to be executed. The naval shipyard piece of 
that obviously therefore is the carrier and the carrier has to 
deliver on time.
    Ms. Bordallo. And I have a third question, Mr. Chairman, 
that is all I have.
    Much of our maintenance backlog has been driven by 
sequester-level budgeting. Now your future planning with O-FRP 
revolves around funding being restored to the program at the 
President's budget levels. What would the impact be if you were 
faced with another round of sequester-level funding?
    And additionally, what are the restraints of your funding 
if it comes from OCO [Overseas Contingency Operations] instead 
of base funding?
    Admiral Whitney. So the impact on the naval shipyards to 
sequester-level funding would be a repeat of what we 
experienced previously. We would face likely hiring freezes, we 
would reduce overtime, we would take risk on material 
procurements--those things that would ultimately end up in 
delays to availabilities inside the naval shipyards.
    Ms. Bordallo. And maintenance?
    Admiral Whitney. And maintenance, yes, ma'am. The backlog 
of maintenance would again continue to accrue. So it--we have 
articulated that before and I would see no reason why the 
impacts would not be the same.
    Ms. Bordallo. All right, thank you. And I yield back.
    Mr. Wittman. Thank you, Ms. Bordallo.
    Dr. Wenstrup, any questions, please?
    Dr. Wenstrup. I do have one quick question. And may not 
even be appropriate to answer it in this setting, to be honest 
with you. I think you probably, sir, have a great understanding 
of what readiness means. And what you would feel would be 100 
percent readiness within your jurisdiction.
    And like I said, it may not be appropriate to answer in 
this setting, but I would be curious to know what percentage of 
readiness you feel we are at right now.
    Admiral Whitney. That would be a hard one to answer. I 
would take that as a lookup and for us as Navy, too to come 
back and give you a specific answer on that.
    Dr. Wenstrup. I think it is very clear it is not 100 
percent right now. Would you agree with that, sir?
    Admiral Whitney. Yes, sir.
    Dr. Wenstrup. When you consider you have a backlog of 
maintenance, how can we be 100 percent ready?
    Admiral Whitney. Yes, sir, agreed.
    Dr. Wenstrup. Thank you very much. I appreciate your being 
here this morning and for your service.
    Mr. Wittman. Thank you, Dr. Wenstrup.
    We will now go to Mr. Peters.
    Mr. Peters. Thank you, Mr. Chairman.
    Actually Ms. Bordallo asked my question about the sequester 
and coming up on this month and just want to express my concern 
that we continue to work with you and the committee on coming 
up with a strategy--I think O-FRP is a good start--to deal with 
a tough budget situation.
    But we need to get back to a situation where we are doing 
regular budgets over more than a year, so that there is more 
dependability and more ability to plan. I want you to know that 
I have that in mind. Thank you for being with us today.
    Mr. Wittman. Thank you, Mr. Peters.
    Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman. Thank you, Admiral.
    Just wondering when you talked about the workforce and how 
you are plussing up the number of people that you are hiring to 
make up for the backlog. So what is the shipyards doing to 
address the relative inexperience of this workforce?
    Admiral Whitney. So, ma'am, that is a great question. So 
first off is a recognition that the new folks that we are 
hiring, there is a generational difference in the way that that 
workforce learns. And so what we are addressing is different 
ways to train and develop. And there is a subtle distinction 
between the two.
    And where we are at is, whereas in the past the way that 
the workforce would have learned is more over the shoulder, 
down on the deck learning how to do the work with an 
experienced graybeard kind of right behind him helping him, 
what we are doing is we are creating work environments mock-ups 
like--as like to the real situation as we possibly can, where 
it is actually safe to fail.
    Learn through repetition. Learn by doing. Learn by actually 
them doing the work in a learning environment, and then going 
down and doing the work.
    And so it is more hands-on, it is more up front, it is an 
investment taking them kind of off-line into almost like a 
boot-camp kind of environment. And we are calling those 
learning centers.
    And each shipyard is sharing lessons learned across the 
four of them on how they are developing, how they are training 
these--in these learning centers. And we are seeing positive 
results.
    There are very clear results in each of the shipyards, 
bright spots as I call them, where the new workforce, when they 
actually go down and execute work, is executing at decreased 
durations on the job, high quality, and safety is phenomenal.
    Mrs. Hartzler. I am a former vocational teacher and I am a 
big believer in career and technical education. So in the 
schools around these shipyards, are there any specific programs 
that help, that students can, in high school, take that will 
help feed into that?
    Admiral Whitney. Yes, ma'am, absolutely. We have got great 
partnerships in each of the locations with vocational and 
technical schools.
    The apprentice programs that we have, have great 
relationships with local community colleges and we are reaching 
way down into the high school, looking for that vocational kind 
of aptitude for folks to come on into the shipyards.
    For years and years and years, one of the anecdotes was, 
hey, if you don't do well in high school, you are going to end 
up in that shipyard. We have completely turned that around to 
that is a place where you want to go. And the skill sets that 
we need are evident wherever we are at.
    Mrs. Hartzler. Absolutely. So recently two private 
shipyards in the Hampton Roads area, Newport News Shipbuilding 
and BAE Systems announced plans to lay off 1,500 and 650 
employees respectively. Are these layoffs related to the Navy's 
plan to hire an additional 9,000 employees?
    Admiral Whitney. No, ma'am. This is workload related, 
workload related in each of those specific companies. But we 
are collaborating.
    And so the visibility of the workload in the port is 
something that we have been working on relatively newly, but 
definitely diligently over the course of the last several 
months.
    And there are many places where we need the help, so when 
we were hiring up and are hiring up to that 33,500, that was 
not to the peak. We aimed below the peak because on the 
backside of the peak we wanted to be in control of our decline 
in workload.
    And so there was an element of that peak that we needed and 
still need to continue to work with the private partners on the 
three availabilities that are going into those--into the 
private sector and for us, on the aircraft carriers, we have 
got several HII [Huntington Ingalls Industries] folks working 
right now on the Bush at Norfolk Naval Shipyard, and will on 
the Truman. And also out West, helping Puget Sound on the USS 
Nimitz right now.
    So we have got more work to do, but we are not going to get 
that workload peak done without private sector help.
    Mrs. Hartzler. I only have about 30 seconds left, but I am 
just curious, of all the ships, what is the main area of 
maintenance? What is it that takes the most time and is the 
Navy looking at ways to decrease the maintenance in that area? 
So is it engine overhaul or is it--what would you say is the 
main highest maintenance area on a ship when it is--after it 
has been deployed?
    Admiral Whitney. That is actually very hard to nail down. 
But each availability has what we call a critical and 
controlling path. And predominantly it is in, I will call it a 
high-skill area. It typically is something that is typically 
worn from wear. And it varies.
    So it is kind of hard to answer that question, but we 
definitely know, as we develop the work package, to what is 
going to get worked, we very clearly know what that critical 
path work is going to be.
    Mrs. Hartzler. Thank you.
    Admiral Whitney. Ma'am.
    Mr. Wittman. Thank you, Mrs. Hartzler.
    Admiral, the Navy has come to this subcommittee before, and 
you briefed us about your efforts to hire back workers that 
were lost during earlier rounds of the sequester.
    Can you give us an update on where you are in that process? 
Or are you moving your goals in hiring people back? And as you 
spoke of, you are trying to find that equilibrium to where we 
are not on that roller coaster ride of up and down on workforce 
changes within the public yards. Can you reflect a little bit 
on that for us?
    Admiral Whitney. Yes, sir. So, we are, as we ended this 
fiscal year, we were within 65 people of our goal. And as far 
as I am concerned, we met our goal.
    So, we will be on track relatively easily to meet our goal 
in fiscal year 2016, which was to get to that 33,500 by the 
middle of fiscal year 2016, to gives ourselves a little bit 
more lead angle on the training, and that includes the folks 
that we lost due to attrition during 2013 in the hiring freeze.
    So, we are back on track with that.
    Mr. Wittman. We know that you all play out the different 
scenarios that you face with funding. Obviously, we know the 
scenarios if sequester comes back.
    But give us your perspective of where we are right now, 
operating under a CR through December 11th. And then, give us a 
scenario, too, if the Congress in its infinite wisdom decides 
to operate the remaining portion of this year under CR?
    Can you give us those two scenarios, what it means for you 
operating under CR to December 11th, and what it would mean to 
you to operate for a CR for the remaining portion of the budget 
year?
    Admiral Whitney. Yes, sir. So, operating under a CR for the 
first 3 months of the year is, I will say it is manageable.
    We have good sight visibility of the workload, and what it 
is going to take to execute that. If we go beyond the December 
timeframe, then it becomes much more of a challenge balancing 
the risk associated with the hiring, with overtime, with 
material procurements as we progress through the rest of the 
year.
    Again, also with an eye towards what is at us in 2017. So, 
we are constantly evaluating how we are going to execute the 
year.
    One of the fundamental things that we have changed within 
the last 5 years is, we go through a very purposeful deep dive 
into what is about to happen in the future execution year.
    And we align between NAVSEA as the operator and the fleet 
on an availability by availability level of detail, and issue a 
letter to the shipyards with what we call execution guidance.
    Anything that kind of causes risk, therefore, in that 
execution guidance is going to be a challenge, and likely ends 
up being as a bow wave. And also, a piece of that bow wave, not 
just the work, but it is the things that are going to be a 
degradation in performance.
    And so, we just--we are okay with the--up to December, but 
it is going to get very risky after that.
    Mr. Wittman. Thank you. You had reflected a little bit on 
trying to manage workloads. And we know there is, I think a lot 
of capacity, not only in our public yards but also in our 
private yards, in trying to make sure that we understand where 
those strengths are, so we can utilize those to keep off of the 
roller coaster ride of troughs and peaks with management of 
workload in both the public and private sector.
    Can you give us a little reflection on what you are doing 
in looking at the total workforce management across both the 
private yards and public yards?
    Admiral Whitney. That is a great question. So, the--I will 
answer it in two different ways.
    One is for the four public shipyards, we have very good 
tools that give us site visibility of our workload.
    On a quarterly basis, we sit down, and you may have heard 
the term, one shipyard, one nuclear shipyard, used before. So, 
on a quarterly basis, we sit down with that workload and share 
that with our private sector partners, predominately Electric 
Boat and Huntington Ingalls. And they come to the table with 
what is on their plate, as well.
    And so, we do get down to trade skill level specific 
discussions on looking over the future, and what is the 
opportunity for some workload balancing and sharing.
    We have also gone through a very purposeful exercise over 
the course of the last year, to understand qualifications. So, 
when somebody is qualified as a welder here, what does 
qualified for a welder mean, here?
    So, we have rectified some of the deltas such that, when 
somebody shows up, there is not a requalification to our 
standards thing, there is a--here some interesting and critical 
safety and environmental issues that might be specific to a 
location.
    But then your tool bag and tool belt, you are down working 
on the job. So, that is within the naval shipyards, and part of 
that is the visibility of the workload.
    We are evolving into that with the private sector in the 
surface ship world, as well. And so, that is more work to 
follow, but that is--we are using the same model.
    Mr. Wittman. Very good. I want to finish with one question, 
to play out a number of different scenarios.
    As we talked about, the Navy has looked at how to 
understand the industrial base, the capacity there. But also 
things to better manage the workload.
    And we have been through these periods before, where we hit 
some bumps in the road, and that uncertainty creates issues 
with our workforce.
    Has the Navy thought of some of these scenarios? And I want 
to play a couple out.
    One is, is bringing forward-deployed ships back to the 
United States to have work done here, for those maintenance 
availabilities that may exceed 6 months of longer-term work to 
be brought back stateside.
    Using available congressionally approved appropriations to 
expedite the current cruiser modernization process to kind of, 
again, create some workload there, where you can manage those 
peaks and troughs.
    Looking at implementing public-private partnerships in the 
long term, to do non-core work on our fleet. Also, you could 
outsource lower-priority work, such as the work on Los Angeles-
class submarines, out to the private yards. Again, kind of 
manage that workload, that normally processes through our 
public yards.
    And then looking at allocating all of your available 
appropriations, including your base and overseas contingency 
operation funds, or appropriations, to mitigate these workflow 
fluctuations that we have seen here recently.
    Can you kind of give me your perspective on some of those, 
those scenarios, as how you would see those as a part of your 
management process?
    Admiral Whitney. Sir, I believe we use some of those 
flexibilities already, and obviously, there is probably more 
room to use some of those.
    Within the constraints of, I will say some existing 
policies--Navy policies. But--like, for example, the 
outsourcing of lower-priority work within the naval shipyards. 
When we have site visibility of where that kind of, I will say 
that cut line of resources is, that is absolutely one of the 
levers that we go off and try and pull.
    As far as some of the other examples that you got, I think 
I would take that as a look-up for us to come back and maybe 
give you some more detail.
    [The information referred to can be found in the Appendix 
on page 45.]
    Mr. Wittman. That would be great. If you could take those 
scenarios for the record so we can just play those out. And in 
closing this, I would also like to have from you, for the 
record, if there are things that the Navy needs 
administratively, or statutorily from Congress to facilitate 
greater flexibility in helping you in managing the workload, 
but also managing workforce in both the public and private 
side, we would like to know that, too, because there may be 
some things that we can do in next year's NDAA [National 
Defense Authorization Act] to help facilitate what you can do 
to better manage that workload and workforce.
    Admiral Whitney. Yes, sir. We will take that one.
    [The information referred to can be found in the Appendix 
on page 45.]
    Mr. Wittman. Very good. Now go to Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. And good to see you 
again, Admiral.
    Just to follow up a couple of the comments that the 
chairman made. Yes, again, it looks like you have made some 
impressive progress in terms of boosting the hires in the last 
year or so.
    Secretary Perez of the U.S. Department of Labor was up in 
Groton last summer, where, again, there is nothing as dramatic 
as what is going on with the public yards, but clearly, you 
know, the need--what, if nothing else, the sort of a 
generational refresh is sort of got the apprenticeship programs 
sort of open for business again.
    You know, one of the apprenticeship programs we visited was 
at the welding area, you know, you have actually two 
generations of welders that were sort of doing the 
presentation. One who was in his 60s, another who was his son, 
who was actually in his sort of late 30s, early 40s.
    And they were talking about, sort of--you know, as you, I 
think I heard you as I just came in, is you know, what is a 
welder? Again, you can hire someone and put them in that job 
classification. But what we heard that day was that, you know, 
really--aside from sort of the initial apprenticeship stint, I 
mean, the fact of the matter is, is you need somebody looking 
over the shoulder of that new person for some period of time.
    I mean, a year, 2 years or so. And then, they can sort of 
start doing sort of basic welds, but in terms of a real--sort 
of master welder, I mean, you are talking years before you 
really have sort of--got that person up to a qualification.
    And frankly, there is a lot of risk in terms of, you know, 
retention. Because there is--you know, with advanced 
manufacturing just sort of taking off in aerospace, you know, 
you name it. The fact of the matter is, is that, you know, sort 
of holding on to these folks really makes sort of the initial 
numbers that we see in today's testimony, I mean, really are 
just sort of the beginning of the challenge for, you know, 
having a workforce that is ready to take on these challenges.
    And I was sort of wondering, I mean, have you sort of built 
in, sort of the fact that there is going to be attrition over 
the time period? And frankly, that there is still a gap in 
terms of timing to get people really up to doing these.
    You don't want mistakes. You know better than anybody in 
terms of submarines or surface ships in terms of bad welds, or 
people who, you know, really aren't ready for the job.
    Admiral Whitney. Yes, sir. Extremely salient point.
    So, one of the things that we are doing differently, 
acknowledging some of that generational difference in the 
learning is--I will call it a deep immersion. We talked about 
it a little bit earlier. A place where it is safe to fail.
    So, welding is a great example. Where what we would have 
done previously is a little bit more of that over-the-shoulder 
learn-as-you-go, we can't afford years for somebody to get that 
proficient.
    The sense of urgency behind what the workload is in front 
of us, we have to accelerate as much as we can the proficiency 
and experience of the new workforce that is coming in.
    One of the places that we are doing that is what we are 
calling learning cells, learning centers. It is a off the ship, 
it is--the best example is actually up at Portsmouth where we 
took whole tanks from a submarine that Puget Sound Naval 
Shipyard was dismantling, put them out at Portsmouth, and are 
using them as real, live examples of blasting and painting.
    So new employees are coming in and in real submarine tanks, 
in real, cramped submarine tanks, learning over and over and 
over again all of the techniques necessary to be extremely 
proficient, way quicker than what we would have trained them to 
before.
    Welding is another example. So a combination of virtual 
welding, which can get somebody who comes off the street and 
has no idea how to weld, but they can learn pretty quickly with 
a virtual welder. And then transition into a learning center, 
where they weld upside down, using a mirror, over and over and 
over again, in a safe-to-fail environment that is not causing 
rework down on the deck plate.
    So it is an opportunity for us to bring left the timeline 
for proficiency, but it is somewhat trade-specific. But that is 
the journey that we are on right now, and it is a recognition 
that we have to make that investment quickly because one of the 
things that will keep somebody on the job and in the service is 
job satisfaction.
    That connection to patriotism of getting the job and the 
job satisfaction of doing it right the first time, that is an 
intangible that we are counting on.
    The other part is acknowledging that as we are hiring, we 
do see the backside of the peak, and so we are watching that 
attrition very, very carefully. We have got very good data of 
the folks that are in the two different government retirement 
systems. We kind of know what the sweet spot is. And we are 
also having the very purposeful conversations with the 
workforce so that we know kind of when they are planning on 
leaving.
    So we are dialing it in very, very carefully to make sure 
that we are staying in control of it.
    Mr. Courtney. So again, I think it is good that you are 
trying to do things, you know, differently because of the 
challenges. As we saw that day with the Secretary. It is just 
not, again, giving someone a job classification.
    So I was also struck by Admiral McCoy, when he used to 
testify before us on these types of issues, he used to call a 
nuclear welder the equivalent of a brain surgeon in terms of, 
you know, what it takes to be in that totally qualified area.
    And again, brain surgeons don't start going to the 
operating table in a year or two. I mean, it is a process that 
takes a very long period of time.
    You know, Mr. Wittman asked the question about using the 
private yards to--for some of the Los Angeles-class work. I 
guess the other question is that when--under Admiral McCoy, 
there was a lot of discussion again about dips and using road 
work as a way of again protecting the workforce.
    Can you give us some numbers in terms of what the road 
work, you know, programs look like these--today?
    Admiral Whitney. So the road work, you are talking about 
the----
    Mr. Courtney. Again, so--for example, if there is a layoff 
at Huntington or BAE or Electric Boat, you know, whether or 
not, given the fact that you need this workforce, I mean, 
whether you are using road work as a way to fill that? And 
clearly that has been done in the past. I am just sort of 
wondering where we are in terms of the numbers today.
    Admiral Whitney. Yes, sir. So I can get back to you with 
some specific numbers, but we are absolutely we are absolutely 
relying and using right now road work, specifically on the 
aircraft carriers and to some degree on the submarines.
    But more so right now, one, because we have got--so we have 
got one, we have got three aircraft carriers in execution right 
now, all at the same time, about to add a fourth with the start 
of Ronald Reagan over in Japan. That is a big chunk of aircraft 
carrier. At the same time, Huntington Ingalls is stepping into 
their valley.
    Then it becomes a timing to make sure that we can align the 
timing right and we are working on that every day. So I can 
take for specifically the numbers for you.
    [The information referred to can be found in the Appendix 
on page 45.]
    Mr. Courtney. Please. I mean, again, because it was a 
pretty successful approach a few years ago, and again, Admiral 
McCoy, to quote him, talked about sort of the notion of a one-
shipyard approach because--and I think Roscoe Bartlett used to 
say it is like having six horses and food for five sometimes in 
terms of trying to satisfy the industrial base or keep people 
working and trying to balance that. I think it is a pretty 
successful strategy.
    Admiral Whitney. Yes, sir. I agree with that.
    Mr. Courtney. Yes, so we would look forward to those 
numbers.
    I yield back, Mr. Chairman.
    Mr. Wittman. Very good. Thank you, Mr. Courtney.
    Ms. Bordallo.
    Ms. Bordallo. Thank you. Thank you. I have just one 
question, Admiral, it has to do with the MSC [Military Sealift 
Command] ships, which are normally in our shipyard. Where does 
the maintenance of the MSC ships fall into the O-FRP process? 
And how does any delay in maintenance of the MSC ships affect 
the carrier strike group readiness?
    Admiral Whitney. Ma'am, that is a little bit outside of my 
swim lane. I would be glad to take that one for you and we will 
get you back a specific answer.
    [The information referred to can be found in the Appendix 
on page 45.]
    Ms. Bordallo. Thank you very much, Admiral. And I yield 
back, Mr. Chairman.
    Mr. Wittman. Thank you, Ms. Bordallo.
    Mrs. Hartzler, do you have any more questions? Any members 
have any additional questions?
    All right. Admiral Whitney, thank you, thank you so much. 
We appreciate that. We have given you a few questions for the 
record, too--for the record, so we can clarify in our minds 
some things that are going on. Please let us know, too, if 
there is anything that we can do specifically to give you the 
necessary flexibility in managing both workload and workforce.
    So we look forward to working with you to make sure we 
enable you to make sure our ships get in and get maintained so 
they can get back to sea with our great sailors on board, and 
do the great job for our Nation and make sure that our sailors 
and their families are happy with their deployments.
    Admiral Whitney. Thank you, sir. Honored to be here.
    Mr. Wittman. Thank you.
    [Whereupon, at 8:38 a.m., the subcommittee was adjourned.]

?

      
=======================================================================




                            A P P E N D I X

                            October 1, 2015
    
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 1, 2015

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      

      
 ======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            October 1, 2015

=======================================================================

   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   

      
  
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            October 1, 2015

=======================================================================

      

            RESPONSES TO QUESTIONS SUBMITTED BY MR. WITTMAN

    Admiral Whitney. A copy of the brief that was given to HASC 
Readiness Subcommittee Staff, SASC Seapower Subcommittee staff and the 
Virginia House Delegation is attached. [See Appendix page 31.]
    Navy remains engaged with Norfolk Ship Repair leadership and 
Hampton Roads delegation regarding options for workload balancing and 
level loading the port. The Navy is commencing efforts to fill near 
term valleys in workload as much as possible.   [See page 10.]
    Admiral Whitney. NAVSEA believes that the existing statutes related 
to depot-level maintenance and repair allow sufficient flexibility in 
managing the workload and the workforce of the public shipyards.   [See 
page 10.]
                                 ______
                                 
            RESPONSE TO QUESTIONS SUBMITTED BY MS. BORDALLO
    Admiral Whitney. The fiscal year 2015 (FY15) workload of 5.0 
million mandays is forecast to increase to 5.4 million mandays in FY18. 
Mitigation actions accomplished as part of the programming process 
indicate that workload will exceed the efficient range in FY17 and 
FY18. This will require more contracting actions to balance the 
workload-to-workforce mismatch.   [See page 13.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. COURTNEY
    Admiral Whitney. One of the planned outcomes of O-FRP is that MSC 
will fully support O-FRP implementation by providing fully capable and 
modernized ships available to support fleet combat and peacetime 
requirements within approved spending authority. We will closely 
synchronize MSC maintenance schedules to support CSG readiness through 
development and analysis of Master O-FRP Production Plans (9-year 
schedules) for both CSGs and MSC.   [See page 12.]

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            October 1, 2015

=======================================================================

      

                  QUESTIONS SUBMITTED BY MS. BORDALLO

    Ms. Bordallo. What percentage of ship maintenance availabilities at 
the public shipyards were completed on time and within budget in fiscal 
year 2015? What is the outlook for fiscal year 2016?
    Admiral Whitney. For the four public Naval Shipyards in FY15, 22 
availabilities were completed, of which 6 (27.3%) were on time, and 1 
(4.5%) was at budget. For perspective, 10 of those 22 availabilities 
that completed in FY15 were within 10% of CNO schedule durations and 4 
of those 22 availabilities completed within 10% of budgeted mandays.
    In FY16, 13 availabilities are scheduled to complete, of which 6 
(46.2%) are tracking to their CNO scheduled completion date and 2 
(15.4%) are tracking to their budgeted mandays.
    The Naval Shipyard performance has been challenged in the past 
three years due to increased workload and an increased number of new 
and less experienced workers. In FY14, the Naval Shipyards executed 4.7 
million mandays of workload. This workload continues to increase in 
FY15 through FY17 (PB17 workload is at 5.3 million mandays), and will 
likely peak in FY18. This increase has been caused in part from the 
high operational tempo of the Fleet and extended deployments.
    Starting in FY15, the Naval Shipyards have been hiring up to a 
planned level of 33,500 full-time equivalent (FTE) employees by the end 
of FY 16. Given that FY15 and FY16 are building years for matching the 
Naval Shipyard workforce to workload, the Navy expects on-time delivery 
to improve as the recently hired workers are trained and integrated 
into the experienced workforce.

                                  [all]
</pre></body></html>
